                  - -             --                                 -    -
         11




      I1
                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
     I
                                                 OFFICE OF INVESTIGATIONS                              I


     11


     )I                                    ACTION MEMORANDUM




11            In October 1998, we received an allegation that a professor improperly administered NSF grant


              Based on the evidence gathered during this investigation, we determined that the professor
              improperly charged the IVSF Research Improvement in Minority Institutions grant for (the
              payment of student stipends, supplies and equipment purchased for purposes unrelated~tothe


              On 02 January 02, the University entered into a settlement agreement with the National Science
              Foundation and the United States Department of Justice by and through United States Attorney's
              Office for the Middle District of Tennessee to provide additional cash cost sharing for,,oneof the
              University's current NSF grants (not involving the professor) in the amount of $10,250 for
              calendar year 2002 and $10,250 for calendar year 2003.

                     . . . Accordingly, this case is closed




                                           Senior Counsel
                                Confidential




                 National Science Foundation
                 Office of Inspector General
                      Report of Investigation#I98120034
                   Subjl
                                  August 3,1999




National Science Foundation        - .
4201 Wilson Blvd., Suite 1135
Arlington,,VA 22230
(703) 306-2001
                                                -    -                       "   -   --       -             .-   -                                                     -
-   6 -,
     I
                                        1                                                                                                                         11


                                                                                                                         Reuort of Investkation #I98 120034
                                        I


     .:j


    .                               I,
                                            .        I.           Introduction                                                                                    I


                                                                                                                                                                 I1

                                    "                             Based on the evidence gathered during this investigation, we have determined that
                                    I               --                                       iofessor in the Department of Biology at
                                                                      .
                                                                             -                                                            11

                                                          --    -----, --,-
                                                                       \-
                                    I



                                                          A. Improperly charged the National Science Foundation (NSF) Research
                                                    Improvement in Minority Institutions (RIMI)' grant for the payment of studeat dpends.
                                                                                                                                                            11
                                                                  B. Improperly charged the NSF/RIMI grant for supplies and equipment used
                               ii                   for purposei unrelated to the grant, including general use and for projects funded by the
                                                               -                          -    - dnd the, .,,---_
                                                                                                                                                        I1




                                                                                                                             improprieties in
                               I
                                                               . .This Report of Investigation reflects i
                                                                        NSF h d s .
                                                                                                          -. .

                           I1                                                                                                                           !



                                                    11.           Basis for Investi~ation

                          I/                           . .In October of 1998, we received an allegation tha~-                   x          improperly
                                                    sdmrnrstered NSF grant,fimds.
                          'I

                                                    III.         Backeroand

                                                                 A.         National Science Foundation

                     1
                                                           NSF i s an independent federal agency created in 1950 to support research and
                                                    education activities in science and engineering. Annually, NSF provides nearly $4 billion
                     I,
                                                    to support more than 20,000 awards. It has programs directed toward specifically
                                                    encouraging the development of research idktructure and potential at undergraduate
                    1                               institutions and encouraging the participation of minohties in science.                         I




                    II                                                                                                                             II
                                                  In Odok 1% - -- nu awarded a$397,172 NSF grant                           for research on a project
                                                entitled "RIMI: -hiol-~ediatedRedation of Yeast-to-Mycelial Dimorphism in Candida A l b i i . "
                11
                                                During the course of this grat .             ~btainedtwo-no-costextensions: one expired on September
                                                30, 1997, and the other expired on May 3 1,1998. The grant funds were totally expended at its close. See
                I
                                                Attachment (1).
               11                               * In September 1993,         ?asawarded a $550,000 grant h x n           through its ~ndergraduatkBiological
                                                Sciences Education Pr6gram for development of science education programs. As part of this award, an 18-
               il                               foot by 36-foot greenhouse was built to carry out botanical research. The greenhouse, which was funded
                                                entirely with        p n t funds, is also used for classroom instruction. This grant was scheduled to expire
                                                on September 30, 1997, but is m n t l y operating under a n m s t extension through September,1999.
                                                              re~uestedthe no-cost extension which was approved by               See Attachment (2).
                                                                                                                                               4

                                              In April 1997     was awarded a $165,961 grant b m          ;97-271) for research on a project entitled
           I
                                            "Training Under-Represented Students in Biological Research 8                 ." This grant is scheduled
                                            to run throughApril 1999. See Attachment (3).
                  was founded by the                                   s 1866 and is a
 historically black college. The Biology Department a: -       offers programs leading to
 the degrees of Bachelor of Arts, Bachelor of Science, and Masters of Arts. Tbis '
 department is directed toward meeting the needs of minority students in preparation for
 graduate studies in the natural sciences, health sciences and careers in govemmmt or
 industry. NSF has a d e d 11 grants . totalimg more than $2 million. The awards
                                                   .
                                                   ..


 in this case were made under NSF's RIM and Research in Undergraduate Institutution

           c-     -                    Prior Im~ro~rieties
                                                        in Administering NSF Funds "
                                           -I
         In 1995, we found that                 . 1) paid graduate-level student stipends
 f h m an RUI' grant; and 2) he charged the RUI grant for .the purchase of supplies ,and
 equipment for use unrelated to the RUI grant.

                           paid $7,000 to three students in the form of gradua&level
 stipends fkom the RUI grant, which was stipulated to support only undergraduate,
 research. In addition, the students did not perform research on the RUI project for which                   .
 they were paid, but were actually working fc                      ~nthe RIMI p r o j k In
 addition, a total of $1,695 of RUI grant h d s were used to pay stipends to undergraduate
 students who worked on the RIM1 project, not the RUI project.                                           I




       Furthermore, - -               ,used $1,433 of RUI grant funds to purc&
general biology supplies and equipment to be used by al!        biology students
performing work whether or not it was dated to the RUI grant. - -. _                                 I



estimated that only 15% of the supplies purchased with RUI grant funds were used to
conduct research for the RUI grant, and all the other supplies purchased were used in a
manner unrelated to the grant.

                          admitted to OIG agents that he paid three students graduate-
level stipends fkom grant funds feserved for undergraduate students. -                          it

M e r admitted that these students did not perform research on the RUI grant for which
they were paid, but wke instead working on the RIM1 grant. - -- - -- ---        stated
that: 1) he charged the RXMI project expenses to the RUI grant because the RUI grant
was soon to expire; and 2) he charged the RUI grant for the purchase of general biology
supplies and equipment for use by ail students performing work unrelated to the RUI ,
grant*


 In 1990          ms awarded an NSF RUI grant in the amount of $66,000 to conduct research 06 a marine
biology project                                 ~ ~ ~ an additional $9,879 for
                                    . 9 9 3 , - awarded                             project The award
                                                                                           /I


                                                                                           It
                                                                                        Rewrt of Investigation #198 120034


                          As a result of our 1995 investigation,
                                                              was required to r e h d $10,128 to NSF.
                   ^.   ,rlso instructed      -   of his improprieties and agreed to institute adequate
             controls to supervise                   administration of NSF funds. In a letter to OIG,
                       -       agreed w
                                      ith our findings and agreed to observe improved controls by
             the University. . .

                                   Present Investi~ativeFindinps

                    .     A.                          o Improper1y Charecd the RlMl Grant for the Pavment of
     !                              Student Stiuends
                                                                                                                          I
                 To ckcukvent the May 1998 expiration of the RIM grant,
          increased the student stipends fiom $750/month to $1200/month in order to improperly
          spend d of the grant .fundsbefore the expiration.'
                               -           - ---
                                  paid five students a monthly stipend of $1200 for five months
         (January through M a y 1998)f For each month, this sum represented a $750 stipend and
         a $450 pre-payment for work to be completed a f k the expiration of the grant. In total,
         the five students were paid $11,250 for work to be conducted after the grantexpired.
         Only one of the students worked on the project after the expiration of the grant.
               .
               The $1200/month stipend for 5 months is equal to the stipend amount of
                                                                                                                      i
         $75O/month for 8 months. Specifically:

                         $1200/month x 5 months ( J a n u a ~through
                                                               ~     May 1998) = $6000/student
                         $75O/month x 8 months (January through August 1998) = $600O/student.                      'I




                A total of $11,250 was improperfy charged to the RlMI grant for work which was
 1       not completed during the three summer months (June, July and August) a .the
         expiration of the award. See attachment (9).
                                                                                                                   I


 11                       $75O/month x 5 students = $3750 (x 3 months) = $1 1,250.

                D e April 1999, we intewiewed four of the five graduate students who 1'
1        received stipends ~ I E            h m January through August 1998: Three

I1
         'In December 1997, _                         NSF in an attempt to get a third no-cost extension to continue
         the grant beyond the May 3 1, 1998, expiration date. The first and second no-cost extensions were
         approved, but the third was not                                                                          [I


11
         6~ M e r review of account summaries revealed that, of the five students who received the $1200 stipends,
         two of them had previously been paid $750/month for five months and one had received $750/monp for
II

         -
         four months.

                    -
                                                                         provided written statements tc              SA
                                     -   did not provide a statement                                      ic  o d e d that
I'       the fifth student                                                                  ~ ~ the summer of 1998. See
                                                   I, did not work on the N S F / R I M I - during
         Attachments (4), (5) and (6).
                                                                                                                 .i
                                                                                                           1
         students stated that the work they did was unrelated to the RIM1 grant during May, June,
         July and August. The fourth student did not work on the grant in August, but did some
         work h m May through July.

              In these intewiews, the students stated that                      them the klM
                                                                        - told
                                                                             -
      grant was due to expire and he had to spend all the grant money.
      explained to the students that the stipend increase in January 1998 was a pre-payment for
      June, July and August, so he could spend the remaining grant money before the
      expiration      .                                                                  /I


             On April 21,1991, - _               admitted to OIG agents in a statement that
      the $1200 monthly stipend contained a pre-payment to cover the student stipends for
      three monh, (June,July and August) after the expiration of the grant.
                                                                                                          I/




                B.                        Im~ro~erlv   Charged the NSF/RIMT Grant-forS u ~ ~ l i e s
                          and Ecrui~mentUsed for Purposes Unrelated to the Grant,Including
                          G e n d Use and for Proiects Futided by              -           i
                                                                                                 .
               - --   -        purchased supplies and equipment fiom the NSF/RIMI grant for
     purposes unrelated to the grant. He purchased general use chemicals with NSF/RIMI                             '
     grant fiulds on six occasions between January 30,1996, and November 7,1997, totaling
     $7500. He also purchased general use chehicals once with
     February 4,1997, for $643 and once witk -
                                                                              .--
                                                                       - grant funds on
                                                        grant funds on May 15,1998, for
     $1,000. We determined that some of these charges for general use chemicals may be
     appropriate, and some may not. Since we are unable to separate appropriate from
     inappropriate charges, we tentatively consider all the charges inappropriate!      1
                      -
                            .also purchased laboratory and greenhouse supplies h m the
               C




     RIIW grant for purposes unrelated to the grant. He purchased laboboratory
                                                                            and green house
     supplies in the amount of $1,654 on November 14,1996, and a greenhouse motor and
     pump in the amount of $93 on August 19,1997. The laboratory and greenhouse supplies
     are expenses covered under the HHMI award, and not the RIM1 award.

         '  Asadt;                         caused a total of up to $9,247 to be improperly                     a




     charged to the RIM grant for purchases unrelated to the purpose of the grant.g As such,
                     I breached Article 5, Expenditures for Related Projects, of NSF's Grant
I/   General ~onditiottr..'~



     'In our 1995 investigation                estimated that only 15%were appropriate. In this investigation,
11
     he refbed to estimate an amount.

      See Attachments (7)and (8).

     " Article S, para (a) states that amat awarddsmay be upended for related pmjects and charges to & or
     anotherNSF award, provided the awards are scientifically or technically related. Article 5, para (b) states
                                                                                                                                il
                                                                                                                                I1
                                                                                              Report of Investigation #I98120034
                                                                                                                                I
                                                                                                                                t




                             In our interview                        utted that he made purchases from the
)                    NSF/RIMI grant unrelated to the purpose of the grant. He stated that many ofthe
                 I
                     s u ~ ~ l ipurchased
                                 es       could be used in the research being conducted on the 2 .. /
                1
                 1        -..
                     - - gants. He also stated that:
             'I!ii




            k
                j               Usually I try to spend the money on every grant so that everything
                                will be spent on time

            I/ /
                      V. b l l e ~ e dViolations of Civil and Criminal Law
             i
            'i
                                -               mproperly charged the RIM1 grant $11,250 in student stipends
            I
                     and up to $9,247 for supplies and equipment unrelated to the grant. These actions may be
            ,i       in violation of the civil False Claims Act, 31 U.S.C. 8 3729 et seq., and 18 U.S.C.4 287,
            1I       False, Fictitious or Fraudulent Claims.
                                    A.   Mitieatine Circumstances
                      ..
                     1 We found no evidence that                     personally benefited fkom his misuse of
                       grant h d s . A tour of the biology labs and interviews of university students and
                       officials indicate W                    kconductingreseamh.         .

                     2.                     charged the NSF/RIMI grant $1,747 for greenhouse supplies, &oh
D                          included a ~ n h o u s motor
                                                  e     and pump. The greenhouse wss funded entirely by the
                           HHMI grant. However-               ----- stated that those greenhouse supplies were
                                                          ---.-
                                                             .

                           used to grow plants which were later used in the resemch project funded by the RIM
                           grant.
                                                                                                                           IF


                     3. In 1995        pxnised to take measures to ensure that the misuse of NSF grant
                        funds would not occur again. Tbis has not taken place. However, in March 1999,
                             began institutingnew grant control procedures. According to the new Chief
                        Financial Officerthe
                                           , Officeof Sponsored Programs (OSP).has already taken a more
                        active rolein grants management. In the future, OSP will also be responsible for the
                        post-award final expenditure reports to ensure that fed& funds are spent
                                                \
                        a~prop-1~
                                B.       Aagravating Circumstances
        I
                                    In our 1995 investigation,                was officially notified and
    I                subsequently acknowledged that the misuse of student stipends and expending NSF grant
    I
                     funds on unrelated projects was inappropriate. Due to his practices, the institution was
                     required to .repay $10,128 to the NSF.


                     that relatedness must be established and documented by the grantee on the basis of scientific or technical
                     commodity of the work b e i i supported.
                                                                  Re~ortof Investigation #I98 120034



     M. Recommendations                                                                    I
     1. NSF, in conjunction with the Department of Justice, should consider taking
                                                                                                       =
        appropriate action against L                  his repeated misuse of federal grant
         funds
                                                                                           /I
     2. NSF should request that        refund to NSF stipends in the amount of $11,250 !md a
        substantial portion of the $9,247 in supplies, which were improperly charged to
        NSF/RIMI.

     3. NSF should requin          LO ensure the proper disbursement of NSF funds,
        should establish adequate internal controls to maintain the integrity of the pant land to
        M e r -tee        that all expenditures are appropriate and relevant to the scope of the
/I      grant. OSP would be the most likely department to accomplish this task. OSP should
        provide a follow-up report to NSF detailing their actions.

                                                                                           i
